your Account, and you authorize us to disclose information
regarding our experience with you under this Agreement to
credit bureaus and other creditors.
14. Effect of Agreement – This Agreement contains our
complete contract relating to the Account and applies to
every transaction relating to the Account even though a sales
or cash advance draft you sign or a credit slip may contain
different terms.
15. Amendment of Agreement – From time to time, we may
amend this Agreement by giving you written notice of the
amendment at least 45 days before it goes into effect, unless
a shorter notice period is permitted by law or no notice is
required by law. The notice will be sent to your last known
address appearing in our records when it is sent, and will
state the date upon which the amendment will become
effective.
16. Cash Advance by Machine – If Automated Teller
Machines (ATMs) or other electronic devices are available
while this Agreement remains in effect which make it
possible for you to obtain a Cash Advance by use of
your Card in such a machine, we will furnish you with a
confidential Personal Identification Number (PIN). Your use
of that number, together with your Card, in getting a Cash
Advance from such a machine is agreed to constitute your
signature for purposes of such Cash Advance. If you use an
ATM that is not owned by us, you may be charged a fee for
using that machine to obtain a cash advance.
17. Personal Identification Number (PIN) – Upon request
we will furnish you with a Personal Identification Number
(PIN). You agree to keep the PIN confidential. You also
agree you won’t write the PIN on the Card or anything you
keep with the Card. Your use of the PIN and Card in getting
a Cash Advance or making a Purchase is agreed to constitute
your signature for purposes of such transactions. You can
also use your card together with your Personal Identification
Number (PIN) to get a Cash Advance from an Automated
Teller Machine (ATM) in the Visa Network, to get a Cash
Advance from a Visa financial institution or make a
Purchase from a merchant that uses the Card in an electronic
terminal that accesses the Visa system.
18. Credit Union Membership – You understand and
agree that the closing of your Credit Union Share Account
terminates your status as a member of the Credit Union, and
upon such closing, you can no longer obtain credit with the
Credit Union Visa Platinum.
19. No Waiver of Rights – Even though we may have rights
to take or not take certain action under this Agreement, we
may decide not to enforce those rights. Our decision not to
enforce any right we have under this Agreement does not
mean that we waive that right in the future.
20. Federal law provides important protections to members
of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to
the credit transaction or account: The costs associated with
credit insurance premium; fees for ancillary products sold
in connection with the credit transaction; any application
fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee
charged (other than certain participation fees for a credit
card account).

YOUR BILLING RIGHTS –
KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us
at:
Michigan Educational Credit Union
Credit Card Customer Service
9200 Haggerty Road
Plymouth, MI 48170
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You
may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related to
that amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think
you owe.
If you receive our explanation but still believe your bill
is wrong, you must write to us within 10 days telling us
that you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are

questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled
between us.

Visa Platinum
Credit Card Disclosure
And Agreement

If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you
have purchased with your credit card, and you have tried
in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on
the purchase.

(Effective 10/1/17)

To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still
dissatisfied with the purchase, contact us in writing at:
Michigan Educational Credit Union
Credit Card Customer Service
9200 Haggerty Road
Plymouth, MI 48170
While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may
report you as delinquent.
The Federal Equal Credit Opportunity Act prohibits
creditors from discriminating against credit applicants on
the basis of race, color, religion, national origin, sex, marital
status, age (provided that the applicant has the capacity
to enter into a binding contract); because all or part of the
applicant’s income derives from any public assistance
program; or because the applicant has in good faith
exercised any right under the Consumer Credit Protection
Act. The agency that administers compliance with this law
concerning this Credit Union is:
Michigan Department of Consumer and Industry Services
Office of Financial and Insurance Regulation
P.O. Box 30224, Lansing, MI 48909

Website: www.michedcu.org
e-mail: general@michedcu.org
Office Hours (All MECU Locations)
9:30 a.m. to 5:30 p.m. Monday thru Friday
Main Office
9200 Haggerty Road • Plymouth, MI 48170
Phone: (734) 455-9200
Toll-Free Phone: (888) 261-3355
(Outside Metro Detroit area)

Important MECU Credit Card Phone Numbers
24-Hour Credit Card Customer Service
(866) 820-2945
Lost or Stolen Cards
(800) 449-7728
10/17

M-123220

Visa Platinum
Account-Opening Disclosures
INTEREST RATES AND OTHER CHARGES
Annual Percentage
Rate (APR) for
Purchases
APR for Balance
Transfers
APR for Cash
Advances

Paying Interest

9.90%
9.90%
9.90%
Your due date is at least 25 days
after the close of each billing
cycle. We will not charge you
any interest on purchases if you
pay your entire balance by the
due date each month. We will
begin charging interest on cash
advances and balance transfers on
the transaction date.

Minimum Interest
Charge

None

For Credit Card
Tips from the
Consumer
Financial
Protection Bureau

To learn more about factors to
consider when applying for
or using a credit card, visit the
website of the Consumer Financial
Protection Bureau at http://www.
consumerfinance.gov/learnmore

FEES
Annual
Membership Fee
Transaction Fees
• Foreign
Transaction
Penalty Fees
• Late Payment
• Returned
Payment Charge
• Over-the-Credit
Limit
Other Fees
• Damaged Card
Replacement
• Statement Copy
• Draft Copy
• PIN Replacement
• Lost or
Stolen Card
Replacement

None

1% of the converted
U.S. dollar amount
Up to $20
None
None

$2 to replace damaged card
$1 per statement
$1 per draft
$2
No charge for first, second
or third occurrence. $50 per
occurrence beginning with
fourth occurrence.

How We Will Calculate Your Balance: We use a method
called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute
transactions and how to exercise those rights is provided in
your account agreement.

Visa Platinum
Agreement and Additional Disclosures
In this agreement (called the “Agreement”), the words “you”
and “your” mean or refer to each and all persons who have
applied for the Card or Cards by signing this Agreement.
“Card” means the Visa Platinum Credit Card or Cards and
any duplicates and renewals thereof or substitutions thereof
we may issue. “Account” means your Visa Platinum line of
credit loan account with us. “We,” “us” and “ours” means
or refers to this Credit Union. This Agreement is a Truth-inLending Disclosure Statement as well as a contract.
1. Responsibility – By signing an application, you are
applying to us for a Visa Platinum Credit Card line of credit
loan. If we approve the loan and issue you a Card, you
promise to repay all debts and the FINANCE CHARGE
thereon arising from any authorized use of the Card. You
agree not to let someone else use the card. If an application
is signed by two persons, the Account is joint; that is, each
of you, separately and jointly with each other, is liable for
all debts on the Account and FINANCE CHARGE thereon.
Your obligation to pay all such debts and FINANCE
CHARGE thereon continues even though an agreement,
divorce decree or other court judgment to which we are
not a party may direct that only one of you, or some person
other than you (or both of you), must pay such debts and
FINANCE CHARGE.
2. Credit Line – If we approve your loan application, we
will establish a self-replenishing line of credit for you and
will notify you of the amount thereof (“credit limit”) in the
mailer in which we will send you your Card. That mailer is
hereby incorporated herein as part of this Agreement. You
agree not to let your Account Balance exceed such amount.
Each payment you make on the Account will replenish your
credit limit by the part of that payment which is applied to
principal. You may request an increase in the credit limit
by a written application, which must be approved by us.
We may increase or decrease the limit from time to time or
may, with good cause, revoke your Card and terminate this
Agreement. In either event, we will give you written notice
of such action when required by law or regulation to do so.
“Good Cause” includes but is not necessarily limited to your
failure to satisfy the terms of this agreement or our adverse
reevaluation of your Credit worthiness. In the event your
Visa Platinum Credit Line is cancelled or revoked due to
default, the balance at the time of default may be transferred
in-house with the Credit Union and, as a consequence
thereof, be included within your LOANLINER/Revolving
Credit Agreement for collection at the same rate as set
forth in the LOANLINER/Revolving Credit Agreement.
However, you may terminate this Agreement, at any
time and for any reason, by giving us written notice.
Nevertheless, termination by you or by us does not affect
your obligation to pay all debts and FINANCE CHARGE
thereon arising from authorized use of your Card. The Cards
remain our property and you must recover and surrender
to us all Cards upon our request or upon termination of this
Agreement.
3. Using the Card – We will send you a Card or Cards
embossed as you have directed. As soon as received, each
Card must be signed (in the space provided on the back) by
the person whose name is embossed thereon. That signature
must be in the same form as embossed on the front of the
Card. To make a Purchase or Cash Advance, present the
Card to a participating Visa plan merchant or financial
institution, or to us, and sign the sales draft or cash advance
draft which will be imprinted with your Card. Please note

that we are not responsible if a particular Visa plan merchant
or financial institution refuses to honor your Card. You will
receive a copy of any draft you sign when using the Card
which you should retain to verify your monthly statement.
We will upon request furnish you with a copy of a draft at a
charge of $1.00 per copy; however, no charge will be made in
cases involving error resolution.
4. Monthly Payment – We will mail you a statement every
month showing your Previous Balances of purchases and
cash advances, the current transactions on your account,
the remaining credit available under your Credit Line,
the New Balances of purchases and cash advances, the
Total New Balance, the FINANCE CHARGE due to date,
and the Minimum Payment required. Every month you
must pay at least the Minimum Payment within 25 days
of your statement closing date. You may, of course, pay
more frequently, pay more than the Minimum Payment, or
pay the Total New Balance in full, and you will reduce the
FINANCE CHARGE by doing so. The Minimum Payment
will be either (a) 3% of your Total New Balance, or $10.00,
whichever is greater, or (b) your total New Balance, if it
is less than $10.00 plus (c) any portion of the Minimum
Payment(s) shown on prior statement(s) which remains
unpaid. In addition, at any time your total New Balance
exceeds your Credit Line, you must immediately pay the
excess upon our demand. We will apply your payments
first to previously billed and unpaid FINANCE CHARGE
on purchases; then to previously billed and unpaid
FINANCE CHARGE on cash advances; then to previously
billed purchases; then to cash advances; and then to new
purchases, whether or not billed on the monthly statement.
However, any payment equal to, or greater than, the
Previous Balance of Purchases will be applied first to that
balance and any FINANCE CHARGE thereon so as to avoid
continuing accrual of FINANCE CHARGE on that amount.
5. Finance Charges – Your Visa Platinum Account will
be subject to a FINANCE CHARGE (interest) at the
periodic rate of .825% per month, which corresponds to an
ANNUAL PERCENTAGE RATE of 9.90%. The FINANCE
CHARGE is calculated by applying the above periodic
(monthly) rate to the Average Daily Balance (including
new purchases). An “Average Daily Principal Balance” is
calculated separately for purchases and cash advances and
is determined as follows: For each day during the statement
period (billing cycle) the principal balances of purchases
and of cash advances from the previous day are increased
by any purchases or cash advances posted to the Account
that day and decreased by any payments or credits posted
to the Account that day. Such daily principal balances
are separately totaled and then divided by the number of
days in the statement period (billing cycle), resulting in the
“Average Daily Principal Balances” of purchases and cash
advances shown on your statement.
You can avoid FINANCE CHARGES on purchases by
paying the full amount of the New Balance of Purchases
each month within 25 days of your statement closing date.
Otherwise, the New Balance of Purchases, and subsequent
purchases from the date they are posted to your account,
will be subject to FINANCE CHARGE. Cash Advances
bear FINANCE CHARGE from the transaction date until
paid. There is no free interest period for Cash Advances.
However, you can always keep the FINANCE CHARGE to
a minimum by making payments, whatever the amount, as
promptly and as often as possible.
6. Other Charges – If the required minimum payment due
under this Agreement is not paid within 10 days after the

payment due date, you agree to pay the Credit Union a Late
Payment Fee of $20 or equal to your minimum payment
if your payment is less than $20. No late charge will be
imposed after this Agreement has become due and payable
in full due to default as specified in the section of the
Agreement entitled “Default.”
Your account may be subject to other charges including a fee
of $2.00 for replacement of damaged card(s) and a $1.00 fee
per copy of statements.
A charge of $2.00 will be billed to your account for a
Personal Identification Number (PIN) replacement.
There is no charge to replace a lost or stolen card after the
first, second or third occurrence. A charge of $50.00 per
occurrence will be billed to your account beginning with the
fourth occurrence of a lost or stolen card.
7. Credits – If merchants who honor your Card give you a
credit for returns or adjustments, they will do so by sending
us a credit slip which we will post to your Account. You
should keep your copy of the credit slip to verify your
monthly statement. If your credits and payments exceed
what you owe us on the Account we will credit such excess
to the Account and, if the amount is $1.00 or more, we will
credit it to your share account after 6 months or upon your
written request.
8. Foreign Transactions with Visa Platinum – Purchases
and Cash Advances you make in foreign countries and
foreign currency will be billed to you in U.S. dollars. The
conversion to U.S. dollars will be calculated based on a
government-mandated rate in effect one day prior to the
Processing Date. If you make a charge in a foreign currency,
we will charge you a Foreign Transaction Fee of 1% of the
converted U.S. dollar amount.
9. Loss or Theft of Card – You agree to notify us
immediately upon discovering that your Card has been lost
or stolen. Call 1-800-449-7728.
10. Liability for Unauthorized Use – You may be liable
for the unauthorized use of your credit card. You will not
be liable for unauthorized use that occurs after you notify
Michigan Educational Credit Union at 9200 Haggerty Road,
Plymouth, MI 48170, orally or in writing, of the loss, theft, or
possible unauthorized use. In any case, your liability will not
exceed $50.00.
11. Illegal Transactions – You agree not to use your Card for
any illegal transactions.
12. Default – The Minimum Payment shown on the
statement is due by the payment due date as shown on the
statement. You will be in default if you fail to make the
minimum payment by the statement payment due date. You
will also be in default if (a) you breach any other conditions
of the Agreement (including your agreement not to allow
your balance to exceed your credit limit), (b) if we determine
that your creditworthiness (which includes your ability
to repay us) has become unsatisfactory due to change in
employment, increase in your other obligations, or because
of any other reason, or (c) in the event of your death. In
the event of any default or in the event this Agreement is
terminated by you or by us for any reason, the entire balance
on the Account becomes due and payable forthwith. You
also agree that, in case of default, you will pay all usual and
customary costs of collection permitted by law, including,
but not limited to, attorney fees and expenses incurred by us
in the enforcement of this agreement.
13. Credit Information – You authorize us to investigate
your credit standing when opening, renewing or reviewing

